No._

5921

IN THE
SUPREME COURT OF THE UNITED STATES
m
JOSEPH J. CRAIG
Petitionerv.

FILED
SEP 2 3 it*. 1

STATE OF KANSAS
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner has previously been granted leave to proceed In Forma Pauperis in the following
court(s):
Geary County District Court
Kansas Supreme Court
In accordance with U.S. Supreme Court Rule 39 (1) Counsel was appointed under Kansas
statute K.S.A. 22-4501 et Seq
1

RECEIVED
SEP 3 0 2020

